Centers for Medicare and Medicaid Services (CMS) | Office of Inspector General
Medicaid Payments for Services Provided to Beneficiaries With Concurrent Eligibility in New Jersey and New York for July 1, 2005, Through June 30, 2006 - New Jersey Department of Human Services
July 24, 2008 | Audit A-02-07-01029
Executive Summary
For the period July 1, 2005, through June 30, 2006, we estimate that New Jersey made approximately $1 million ($544,000 Federal share) in Medicaid payments on behalf of beneficiaries who should not have been eligible in New Jersey because of their Medicaid eligibility in New York.
Complete Report
Download the complete report  (PDF)
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
Return to CMS